                              CLOSEOUT FOR M-94030009




in his review. Specifically, in his review of the T6mplainant's proposal, the subject quoted a
phrase from one of the complainant's co-authored publications included in the proposal's
appendix. The complainant alleged that by including the quotation in the review the subject
misrepresented the quote as coming from the proposal which the complainant claimed was a
"virtual fabrication." The complainant also claimed that the quotation was irrelevant to the
proposal and, therefore, its use in the review was done "with a malicious intent to undermine
the credibility of the proposal via a negative review. "

        OIG reviewed the complainant's letters, the program officer's diary notes, the proposal
jacket including the reviews, and the articles included in the appendix of the proposal.

         The complainant sent a written critique of the reviewers' comments to the NSF program
officer following notification that his proposal had been declined. The complainant included an
allegation of misconduct in science against one of the reviewers in his critique. In a subsequent
letter, the complainant requested that NSF reconsider its declination of his-proposal.

        OIG observed that the subject clearly marked the phrase he quoted in his review and cited
the complainant as the source of the phrase. OIG determined that the complainant had included
the article from which the quotation had originated in the appendix of his proposal and had
referred to the specific article no less than six times in the body of the proposal, three of which
further indicated that a copy of the article was in the appendix. Further, OIG determined that
the quotation was relevant to the review of the proposal in that it demonstrated how the
complainant interpreted other researchers' results as they related to the scientific procedures
discussed in the proposal. OIG determined that the subject's use of the complainant's own
words, which the complainant provided as a part of his proposal, was not fabrication, and the
use of the quotation was within the subject's discretion as a reviewer.

       OIG concluded that there was no substance to the allegation that the subject fabricated
information in his review of the complainant's proposal.


                                           Page 1 of 2                                    M94-09
                           CLOSEOUT FOR M-94030009

      This inquiry is closed and no further action will be taken on this case.

cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
